No.

IN THE SUPREME COURT OF THE UNITED STATES

Randy Raymond Bell
Petitioner,
v.
New York State Department of Corrections
and Community Supervision et. al
Respondents.

PAGE COUNT CERITFICATION

As required by Supreme Court Rule 33.2(b), I certify that the petition for a Writ of
Certiorari is under the 40-page limit and contains 17 pages, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d). I declare under
the penalty of perjury that the foregoing is true and correct.

Dated: April 15th, 2021

RECEIVE0

mio

Randy Bell
5668 Eloise Crescent,
PO Box 584,
Osgoode, Ontario, Canada
KOA 2W0
Tel. 1-613-469-0131

